   DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General

        Review of the Transportation Security
       Administration’s Management Controls
       Over the Screener Recruitment Program




               Office of Audits
OIG-06-18                         December 2005
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                               Preface



The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibility to promote economy, efficiency, and effectiveness within the
department.

This report assesses the strengths and weaknesses of the Transportation Security Administration’s
management controls over its screener recruitment program during calendar year 2002. It is based
on interviews with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed according to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our hope that
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents
Executive Summary ............................................................................................................................. 1

Background .......................................................................................................................................... 3

TSA Management Controls To Federalize the Airport Screener Workforce… ................................... 5

Federalization Planning Process ............................................................................................................6

Increased Funding Needs.......................................................................................................................8

Costs of Temporary Assessment Centers ............................................................................................10
   Set Criteria for Selection of Assessment Center Locations ...........................................................10
   Establishment of Approximately 150 Temporary Assessment Centers ........................................12

Improved Program and Contract Management....................................................................................12

Conclusion            ......................................................................................................................................14

Recommendations................................................................................................................................15

Appendices
Appendix A:                  Purpose, Scope, and Methodology ..................................................................... 16
Appendix B:                  Management Comments..................................................................................... 18
Appendix C:                  Congressional Request for OIG Review ..............................................................22
Appendix D:                  Top 20 Assessment Centers Ranked by Highest Total Costs ..............................24
Appendix E:                  Top 20 Assessment Centers Ranked by Highest Cost Per Person Hired .............26
Appendix F:                  Top 20 Assessment Centers Ranked by Highest Cost Per Person Assessed........28
Appendix G:                  NCS Pearson Contract Modifications and Funding .............................................30
Appendix H:                  Major Contributors To This Report.................................................................... 31
Appendix I:                  Report Distribution............................................................................................. 32

Abbreviations
OIG                   Office of Inspector General
DCAA                  Defense Contract Audit Agency
ATSA                  Aviation and Transportation Security Act
TSA                   Transportation Security Administration
FAA                   Federal Aviation Administration
FAM                   Federal Air Marshall
                                                                                                    Audit
OIG                                                                                                 Report
Department of Homeland Security
Office of Inspector General

Executive Summary
                             In response to the September 11, 2001, terrorist attacks, Congress passed the
                             Aviation and Transportation Security Act (ATSA)1, which established the
                             Transportation Security Administration (TSA) and required TSA to hire a
                             federalized airport screener workforce within a mandated one-year time
                             period. With no prior experience with a large-scale recruitment program, only
                             a few personnel, and no established requirements concerning project
                             management, TSA successfully recruited more than 56,000 airport screeners.

                             Troubled by press reports of wasteful government spending by the
                             Transportation Security Administration’s (TSA’s) recruitment contractor,
                             NCS Pearson, Senators Dorgan and Wyden requested2 us to perform a review
                             of TSA’s management and oversight of the recruitment program.
                             Specifically, Senators Dorgan and Wyden expressed concerns about the
                             following issues:

                                  •   Cost of TSA’s recruitment activities performed at various resort hotels,
                                      including the Wyndham Peaks Resort and Golden Door Spa located in
                                      Telluride, Colorado;
                                  •   TSA’s oversight of the recruitment program;
                                  •   Criteria governing the assessment center selection process; and
                                  •   Responsibility for selection of assessment center locations used for
                                      recruitment purposes.

                             The Defense Contract Audit Agency (DCAA), which had already been
                             engaged by TSA, conducted an incurred cost audit of the contract. However,
                             DCAA could not determine the reasonableness, allowability, and allocability
                             of NCS Pearson’s contract costs. Although DCAA identified deficient
                             expenses in the categories of labor, travel, and other direct costs, totaling $298
                             million, a lack of information from NCS Pearson and TSA limited its ability
                             to express an opinion. As a result, DCAA issued a disclaimed audit report in
                             May 2004. In December 2004, based, in part, on DCAA’s report, TSA and
                             NCS Pearson settled the contract at the then ceiling price of $741 million,
                             $144 million less than the total invoiced amount. Certain matters associated
                             with NCS Pearson’s contract costs are still under investigation.

1
    Public Law 107-71.
2
    See Appendix C for the request letter.

                                  TSA’s Management Controls Over the Screener Recruitment Program
                                                              Page 1
________________________________________________

          We relied exclusively on DCAA’s compilation of invoiced costs to determine
          site specific and unspecified assessment center costs, and we express no
          opinion on the individual cost elements billed by NCS Pearson. This report
          focuses solely on TSA’s management of the airport federalization process; not
          NCS Pearson’s performance on the contract or the reasonableness of its
          incurred costs.

          TSA faced a formidable challenge: hire a federalized screener workforce
          within 1-year from the agency’s inception. As a brand new agency, TSA did
          not have the staff or infrastructure necessary to plan and manage actions and
          contracts, such as the NCS Pearson contract, needed to complete the
          federalization process within this timeframe. As a result, TSA made critical
          decisions without the benefit of sound acquisition planning or adequate cost
          control.

          TSA had not finalized screener staffing requirements prior to the contract
          solicitation phase and recommended that bidders use a nationwide estimate of
          28,000 to 50,000 screeners in preparing their bids. In response to TSA’s
          solicitation, NCS Pearson’s proposal, on which TSA’s initial contract with
          NCS Pearson was based, was to hire 30,000 screeners using Pearson’s
          existing systems and office locations to process and hire the screeners.
          However, within a month of awarding the contract, TSA concerns about NCS
          Pearson’s existing assessment center capacity, in conjunction with TSA’s
          decision to have assessment centers located within two hours driving time of
          the prospective screeners’ local airports, caused TSA to significantly change
          the contract’s scope. Without any apparent analysis of the cost impact, TSA
          dramatically changed its recruitment approach and directed the contractor to
          establish approximately 150 temporary assessment centers.

          The establishment of temporary assessment centers; delays and revisions in
          issuance of the airport federalization schedule and staffing requirements,
          including the requirement for a ready pool of approved applicants beyond
          those initially hired; and higher than expected applicant rejection rates
          significantly impacted NCS Pearson’s costs to establish and operate the
          assessment centers. By the contract’s end, NCS Pearson had assessed more
          than nine times the number of screeners originally estimated in less than half
          the time originally allotted. Consequently, the increased candidate volume
          increased the size of assessment centers needed and the length of time those
          centers had to be available. These factors contributed to increasing contract
          costs from the original estimate of $104 million to a final settlement amount
          of $741 million.

          Factors such as the increased staffing requirements would have increased
          contract costs even if Pearson’s proposed approach had been used, and we
          have no way to estimate with certainty what the final recruitment cost would


           TSA’s Management Controls Over the Screener Recruitment Program
                                    Page 2
________________________________________________
                         have been had TSA used NCS Pearson’s existing systems and assessment
                         centers. Apart from this consideration, and without addressing the impact of
                         other actions NCS Pearson may or may not have taken, we believe TSA’s
                         planning and management issues contributed to the increased costs. In
                         addition, TSA’s delay in recording contractual obligations may have put them
                         at increased risk for Antideficiency Act violations.

                         TSA has made significant progress in the development of project management
                         and acquisition polices and procedures since the airport federalization process
                         in December 2002. TSA’s policy and procedure changes, together with other
                         procurement related improvements that DHS has agreed to make on a
                         department wide basis should help to prevent such circumstances from
                         occurring in the future. Nevertheless, TSA needs to continue to strengthen its
                         policies, procedures, and controls. We are recommending that TSA continue
                         its efforts to improve its policies and procedures as they relate to controlling
                         contract costs and providing effective project management. We also are
                         recommending that TSA strengthen and formalize its policies and procedures
                         governing funds certification, status of funds reporting, and recordation
                         practices. TSA concurred with both recommendations.

Background
                         In response to the September 11, 2001, terrorist attacks, Congress passed the
                         Aviation and Transportation Security Act3 (ATSA) on November 19, 2001.
                         The ATSA established TSA as an operating administration of the Department
                         of Transportation, responsible for all types of transportation security. To
                         increase aviation security, ATSA specifically required TSA to recruit and hire
                         a federalized passenger and baggage screener workforce by November 19,
                         2002, and December 31, 2002, respectively, at all passenger airports
                         nationwide. The federalization process would systematically replace private
                         contract screeners with newly hired federal workers.

                         On January 18, 2002, TSA issued a Request for Proposal (RFP) for the
                         recruitment, assessment, and hiring of the federalized screener workforce and
                         to provide HR support services. The RFP did not specify the number of
                         screeners TSA needed to hire, and the agency received several questions
                         requesting clarification of the staffing requirement. TSA responded that it
                         could not yet determine the number of positions needed and recommended
                         that offerors use a nationwide estimate of 28,000 to 50,000 plus screeners.
                         TSA also disclosed that it intended to hire an undetermined number of other
                         support, management, and law enforcement personnel.

                         As expected by TSA, the proposals received showed extreme price variances.
                         Offerors made various assumptions about the level of work necessary to meet

3
    Public Law 107-71.

                         TSA’s Management Controls Over the Screener Recruitment Program
                                                  Page 3
________________________________________________
          the proposed contract’s requirements. Proposed hours, average loaded labor
          rates, and other direct costs fluctuated significantly among proposals. After
          reviewing all proposals, TSA selected NCS Pearson. According to TSA, NCS
          Pearson had extensive experience testing and hiring large numbers of
          personnel for various commercial companies and government agencies and
          appeared to have the best technical approach using its extensive assessment
          center locations throughout the United States.

          Since many of the airport federalization requirements remained unknown at
          the time of the award, TSA could not realistically negotiate a firm fixed priced
          contract. Firm fixed priced contracts generally present relatively lower
          performance and cost risks for the government since the contractor is
          responsible for specific performance at a predetermined cost. On February
          25, 2002, TSA awarded NCS Pearson a labor hour contract with a contract
          ceiling of $104 million for recruitment of the federalized workforce, as NCS
          Pearson had proposed. A labor hour contract is a type of time and materials
          contract used in situations where the type or total amount of resources
          necessary cannot be predicted with any reasonable degree of confidence.
          Time and material contracts function much like cost type contracts, and are
          considered to carry the most performance and cost risk for the government.
          Accordingly, close government supervision and direction is critical to
          ensuring that the contractor achieves the desired results at a reasonable cost.
          Using fixed labor categories and rates to manage and track its costs, NCS
          Pearson proposed to hire 30,000 screeners over a 32-week period from its
          existing assessment center network, at a cost of $104 million. NCS Pearson
          assumed that it would need to screen approximately 35,000 applicants to find
          30,000 qualified screeners.

          The independent assessment center process established by NCS Pearson at
          TSA’s direction was designed to process applicants at one location in a single
          day. After applicants passed an on-line preassessment center screening
          process, NCS Pearson scheduled applicants for a two-phased on-site
          assessment. The first assessment phase consisted of three computer tests and
          an initial interview. Candidates who successfully passed Phase 1 continued
          through Phase 2, consisting of numerous physical and medical tests.
          Applicants who successfully completed both phases were qualified for hire by
          TSA. TSA made contingent job offers to these qualified candidates, subject to
          appropriate background checks.

          By December 31, 2002, NCS Pearson had qualified approximately 129,000
          candidates and TSA had hired 56,267 passenger and baggage screeners to
          work at approximately 433 airports. The contract ceiling grew from
          $104 million to $741 million during the performance period.

          The Department of Transportation’s Office of Inspector General (DOT OIG)
          expressed concerns over NCS Pearson’s cost growth. In response, TSA


           TSA’s Management Controls Over the Screener Recruitment Program
                                    Page 4
________________________________________________
                          initiated a DCAA cost audit in September 2002. DCAA could not determine
                          the contract’s cost reasonableness and issued a disclaimed audit opinion in
                          May 2004.

                          Although the DCAA reported that it was not able to obtain sufficient,
                          evidential matter from NCSP and TSA on which to base an audit opinion, it
                          provided comments concerning deficiencies in the invoiced costs.
                          Specifically, DCAA identified “deficient expenses,”4 totaling $298 million,
                          regarding in-house, interdivisional, and subcontractor labor; travel; and other
                          direct costs invoiced by NCS Pearson. TSA used DCAA’s report findings to
                          develop a settlement position and, in December 2004, it settled with NCS
                          Pearson at the contract ceiling of $741 million. Certain matters are still under
                          investigation, and the agreement did not settle or preclude any other claims
                          the federal government may have against NCS Pearson or anyone else.



TSA Management Controls to Federalize the Airport Screener
Workforce
                          TSA did not have the infrastructure, including people, policies, and
                          procedures, to properly plan for and manage the task of hiring screeners
                          within the mandated deadline. With only 12 employees at its inception in
                          November 2001, TSA relied extensively on loaned executives from various
                          government and private sources to supplement staff. Initially, TSA utilized a
                          “Go-Team” structure to manage the federalization process. The “Go-Teams”
                          consisted of working groups responsible for concurrent rollout projects
                          relating to individual ATSA requirements. The “Go-Teams” generally
                          reported to one or more of the original 12 employees. Senior Department of
                          Transportation management officials also provided support for the “Go-
                          Teams.” Although the “Go-Teams” coordinators met regularly to discuss
                          issues encountered during the airport federalization process, the magnitude of
                          the mission required more coordination than the “Go-Team” structure could
                          provide. Further, TSA had no acquisition or implementation plan to
                          coordinate the various ATSA requirements.

                          In June 2002, seven months after the agency’s inception, TSA established a
                          high-level program management team, called the dedicated workforce
                          transition team (transition team) headed by a loaned executive from private
                          industry. The loaned executive said he hired a program management
                          consulting firm specializing in government projects to aid him with
                          management oversight and to advise him on government limitations and
                          restrictions.

4
 Deficient expenses are costs that have inadequate supporting documentation that limits the auditor from rendering an
opinion on the reasonableness, allowability, or allocability of those costs.

                           TSA’s Management Controls Over the Screener Recruitment Program
                                                    Page 5
________________________________________________

               However, by the time TSA formed the transition team and hired the
               management consulting firm, only about six months remained to execute the
               federalization process. Many prior decisions had already been implemented,
               such as the significant changes in the NCS Pearson’s contract scope, that had
               to be managed. Despite the formation of the transition team and the hiring of
               the management consulting firm, TSA continued to react to daily events
               instead of properly planning and managing the federalization process. Senior
               program management overseeing the federalization process included many
               loaned executives with extensive experience in private industry. However,
               they had little or no federal acquisition process training or experience.


Federalization Planning Process
               Generally, legislative deadlines, rather than detailed requirements or cost
               analyses, drove TSA’s management decisions. TSA began the process of
               hiring a federalized screener workforce without the ability or time for an
               adequate planning process to consider and address critical program elements,
               such as cost, schedule, and performance requirements. In essence, TSA
               started the acquisition process without understanding how many screeners
               were needed, whether it had sufficient budget authority to hire those
               screeners, what the contractor could realistically provide within limited
               timeframes, or how other options, such as establishing independent
               assessment centers, could affect cost and schedule.

               During the solicitation phase, TSA acknowledged that it had not finalized
               staffing requirements and recommended that offerors use a nationwide
               estimate of 28,000 to 50,000 plus screeners. According to TSA officials, the
               hiring numbers had not been finalized with either OMB or Congress at that
               time. TSA also disclosed that it intended to hire an undetermined number of
               support, administrative, and law enforcement positions to serve as
               administrative staff at the airports. In response to TSA’s solicitation, NCS
               Pearson proposed, in February 2002, to hire approximately 30,000 screeners
               over a 32-week period according to a federalization schedule to be provided
               by TSA. Numerous other bidders proposed a wide variety of approaches.
               TSA told us that it chose NCS Pearson based on its technical merits and
               company’s prior performance.

               TSA began the airport federalization process and awarded the NCS Pearson
               contract without having the ability or time to develop a formal project
               management plan, an acquisition plan, or an acquisition baseline. These plans
               should have contained detailed information concerning the number of
               screeners needed, the airport federalization schedule, and the program budget
               and cost constraints for the recruitment program. Furthermore, the plans
               should have identified the interdependency between various contractual

               TSA’s Management Controls Over the Screener Recruitment Program
                                        Page 6
________________________________________________
                           actions, established an optimal integrated work schedule among all the
                           contractors, and set baselines for monitoring contract performance.

                           TSA did not provide NCS Pearson an airport federalization schedule until
                           June 14, 2002, because the redesign of airport security checkpoints and the
                           installation of security equipment were not complete. Major discussions
                           occurred between TSA, the Office of Management and Budget, and various
                           contractors concerning the right mix of screeners and explosive and trace
                           detection equipment to use at each airport. Staffing models, which
                           recommended staffing levels ranging between 60,000 and 90,000 during the
                           federalization process, constantly changed in an attempt to find the right
                           balance between technology, human capital, and congressional limitations.
                           These factors impacted the federalization dates and the staffing requirements,
                           as well as the location, size, and space requirements for establishing
                           independent assessment centers. Consequently, NCS Pearson could not start
                           opening assessment centers and recruiting and hiring screeners until almost
                           halfway through the contract term.

                           Even after issuance, the airport federalization schedule and the number of
                           screeners per airport constantly fluctuated, which impacted NCS Pearson’s
                           assessment center selection. Delays in the federalization schedule ranged up
                           to 85 days at individual airports, with an average delay of approximately one
                           month for all airports. Additionally, staffing changes became significant at
                           the individual airport category level. For example, TSA increased the
                           staffing requirements at larger airports5 by 18 percent, while decreasing
                           staffing requirements at the smaller airports6 by 56 percent. This increased
                           the number of assessments for the larger airports by approximately 39,000
                           while concurrently decreasing the number of assessments for the smaller
                           airports by approximately 43,000.

                           Overall, the number of applicants to be qualified grew from NCS Pearson’s
                           original proposal of 30,000 to approximately 129,0007 over the 10-month
                           contract period, about 330 percent. By the time NCS Pearson received the
                           airport federalization schedule in June 2002, TSA had set the staffing
                           requirements at approximately 58,000. TSA also required NCS Pearson to
                           establish an employment ready pool for subsequent attrition hiring. To meet
                           TSA’s revised requirements, NCS Pearson had to qualify 129,000 personnel
                           for 433 airports in approximately 13 weeks—less than 100 days. From these
                           qualified applicants,8 TSA hired more than 56,000 screeners and placed the
                           remainder in a ready pool for subsequent hiring opportunities.
5
  Category X and I airports represent larger airports, with 2.5 million or more annual planned flights.
6
  Category II, III, and IV airports represent the smaller airports, with less than 2.5 million annual planned flights
7
  At the contract’s inception, a qualified candidate was offered a screener position. As the contract progressed, TSA
decided to establish a ready pool to handle future attrition. A qualified candidate that had successfully passed the
assessment center process could be offered a screener position or placed in the ready pool as a qualified potential hire.
8
  A qualified applicant was an applicant that had successfully completed the assessment center process and met TSA’s
hiring standards.

                            TSA’s Management Controls Over the Screener Recruitment Program
                                                     Page 7
________________________________________________


Increased Funding Needs
                           TSA knew as early as April 2002 that the cost of the NCS Pearson contract
                           would exceed its initial $104 million estimate and could cost as much as
                           $542 million based on NCS Pearson cost proposals. In July 2002, NCS
                           Pearson submitted an additional cost estimate of $531 million.9 By this time,
                           NCS Pearson had established several temporary assessment centers, incurred
                           significant costs, and notified TSA that it was working at risk. Working at risk
                           means that the contractor may not receive reimbursement for the work
                           performed. The NCS Pearson contract had a Limitation of Funds Clause that
                           provided for incremental funding of the contract. Under this clause, the
                           Government was not obligated to reimburse the contractor for costs incurred
                           in excess of the total amount allotted by the Government to the contract, and
                           change orders were not considered an authorization to exceed the amount
                           allotted by the Government, unless they contained a statement increasing the
                           amount allotted.

                           TSA did not add funds to the contract to cover the estimated cost at that time.
                           TSA personnel advised us that they had concerns about the reasonableness of
                           the cost estimate provided by NCS Pearson. However, TSA program
                           managers directed the contractor to continue working without funding and to
                           do whatever was necessary, including working outside the contract’s scope
                           without prior approval, to meet the deadline. TSA’s contracting officer did
                           not formally approve the scope change by modifying the contract until
                           September 6, 2002. At that time, TSA increased the contract ceiling to $154
                           million and prepared a justification for other than full and open competition
                           based on unusual and compelling urgency.

                           When a contract contains a Limitation of Funds Clause that provides for
                           incremental funding, appropriations law stipulates that an agency does not
                           incur an obligation on a labor hour contract until the contracting officer signs
                           the modification increasing the funding. However, once the agency becomes
                           aware that the contractor is incurring costs in excess of the limitation of funds
                           clause, the agency should promptly obtain funding and programming
                           information pertinent to the contract’s continuation and decide whether to
                           allocate additional funds to the effort, bring the work to a halt, or take other
                           appropriate action.10

                           TSA did not promptly respond to NCS Pearson’s notifications that it had
                           exceeded the contract ceiling or to its revised cost estimates showing
9
  NCS Pearson’s July 2002 cost estimate did not provide sufficient detail to determine the basis for the $11 million cost
reduction from the April 2002 cost proposal.
10
   Federal Acquisition Regulation, 48 C.F.R. §32.704.

                           TSA’s Management Controls Over the Screener Recruitment Program
                                                    Page 8
________________________________________________
          significant cost increases. For example, by September 26, 2002, TSA knew
          that it would need at least an additional $200 million to cover NCS Pearson’s
          incurred costs through the end of the month. In response to increased pressure
          from NCS Pearson to increase the contract’s ceiling and funding levels, TSA
          modified the contract on October 4, 2002, and again on November 4, 2002.
          These modifications incrementally funded the contract up to $620 million and
          increased the contract’s total ceiling to $660 million. See Appendix G for a
          list of NCS Pearson contract modifications and funding.

          TSA said that its evaluation and decision-making process was impeded by
          NCS Pearson’s failure to provide sufficient documentation for the costs. We
          cannot say whether NCS Pearson’s actions hindered TSA’s ability to monitor
          contract costs. Whatever the cause, the delay placed TSA at risk of having
          insufficient funds to cover contract performance in the event that the costs
          were ultimately allowed.

          Once the contract was modified, TSA also encountered a delay in recording
          actual obligations in the accounting system. Contract obligations exceeded
          the obligations recorded in the financial system by as much as $303 million,
          and contract obligations continued to exceed the recorded obligations through
          at least September 30, 2003, as shown in the following chart.

                                 Cumulative End-of-Month Contract Obligations and Recorded Obligations for
                                     NCS Pearson Contract, February 2002 through September 2003


                        $800,000,000
                        $700,000,000
                        $600,000,000
                        $500,000,000
              Dollars




                        $400,000,000
                        $300,000,000
                        $200,000,000
                        $100,000,000
                                 $0
                                        2




                                        3
                                        2




                                        3
                                        2




                                        2




                                        2

                                        2

                                        2




                                        3




                                        3
                                      02




                                      03




                                      03
                                      02




                                      02

                                      02




                                      03




                                      03

                                      03
                                     -0




                                     -0
                                     -0




                                     -0
                                     -0

                                     -0
                                   r-0




                                    l-0




                                     -0




                                   r-0




                                    l-0
                                   b-




                                   n-




                                   n-

                                   b-




                                   n-
                                   g-

                                   p-




                                   g-

                                   p-
                                  ar




                                  ar
                                  ay




                                  ay
                                 ov

                                 ec
                                  ct
                                 Ju




                                 Ju
                                Ap




                                Ap
                                Ju




                                Ja




                                Ju
                                Fe




                                Au

                                Se




                                Fe




                                Au

                                Se




                    Month/Yr
                                O
                                M




                                M
                                M




                                M
                                N

                                D




                                                Contract Obligations      Recorded Obligations



          Proper evaluation of contract funding requirements and recording practices
          are essential to sound funds control. GAO’ s Principles of Federal
          Appropriations Law warns managers that failure to record legitimate
          obligations makes it impossible to determine the precise status of the
          appropriation and may result in violating the Antideficiency Act.

          TSA agreed that weaknesses existed with its funds control during the
          federalization period. Since that time, it has established a centralized funds
          certification process, implemented a system that allows offices with budget
          authority to generate daily status of funds reports, and has reduced the average

           TSA’s Management Controls Over the Screener Recruitment Program
                                    Page 9
________________________________________________
                          time for recording obligations to two business days. TSA has committed to
                          finalizing a Management Directive concerning the funds certification process
                          and closely monitoring the recordation function.



Costs of Temporary Assessment Centers
                          TSA did not adequately consider the monetary and technical costs associated
                          with reproducing NCS Pearson’s existing infrastructure and business
                          processes in temporary locations. Although TSA believed that time was of
                          the essence and that meeting the legislative mandate justified making quick
                          decisions, TSA acknowledged that it performed no cost-benefit analyses to
                          support the establishment of temporary assessment centers. Furthermore, file
                          documentation showed no analysis of whether NCS Pearson’s existing
                          assessment center capacity, availability, or locality could meet any of TSA’s
                          needs. Although we cannot quantify the cost impact of establishing
                          independent assessment centers compared to using NCS Pearson’s existing
                          assessment centers, we believe that proceeding with this decision resulted in a
                          constructive change11 to the contract that significantly increased its scope and
                          potential overall cost.

                          TSA acknowledged it did not properly manage the assessment centers and the
                          contract. When TSA awarded the contract on February 25, 2002, TSA’s one
                          contracting officer was also responsible for numerous other high dollar
                          contracts key to the agency’s mission. By June 2002, the acquisition office
                          had grown to 13 employees, with the majority comprised of contract
                          specialists. Nevertheless, this staffing level was still not adequate to handle
                          the volume of mission critical contracts underway and contributed to the lack
                          of project management and contract oversight during the federalization
                          process.


                          Criteria for Selection of Assessment Center Locations
                          TSA wanted a localized recruitment program to reduce the impact on
                          incumbent screeners and other applicants. TSA wanted to ensure standardized
                          applicant testing at assessment centers located within a 2-hour drive time from
                          the applicant’s local airport. The Federal Aviation Administration (FAA) in
                          the Federal Air Marshall (FAM) recruitment program used such an approach.

                          Under the FAM recruitment program, FAA collocated the testing and medical
                          assessment centers, streamlined the assessment center process, and allowed
                          single day assessments. Within one month of contract award, TSA decided to
                          follow the FAM recruitment program approach and directed NCS Pearson to

11
  A constructive change occurs when a contracting officer directs a contractor to perform work not required by the
contract, but no formal change order or contract modification is issued.

                           TSA’s Management Controls Over the Screener Recruitment Program
                                                   Page 10
________________________________________________
                              establish temporary assessment centers separate from its existing testing and
                              medical assessment center network. Assessment center candidates passing the
                              computerized testing portion could then immediately proceed to the medical
                              testing portion without leaving the examination area.

                              Based on using the FAM model, TSA developed the following criteria for
                              NCS Pearson’s use in assessment center selection:

                                   •    Cost: Government rates for lodging.
                                   •    Space: Adequate meeting space for conference, testing, and medical
                                        facilities.
                                   •    Connectivity: T-1 lines or other high-speed capability for transmitting
                                        test results, personnel information, and digital fingerprints and
                                        photographs.
                                   •    Availability: Assessment centers had to be available for the extended
                                        time periods required by the airport federalization schedule.
                                   •    Proximity: Assessment center had to be located within a
                                        2- hour drive time from the local airports for which NCS Pearson was
                                        hiring.

                              Once NCS Pearson received a specific airport’s federalization date and
                              staffing numbers, it established the temporary assessment center using TSA’s
                              specified location requirements and timeframe. According to TSA and NCS
                              Pearson personnel, NCS Pearson received little prior notification of
                              federalization dates and sometimes had only a few days to find a location and
                              establish an assessment center.

                              NCS Pearson used Helms Briscoe, a travel and event arrangement firm, to
                              identify potential assessment center sites based on TSA’s criteria. TSA did
                              not specifically select the location of the temporary assessment centers, but
                              was aware of the selection process, as well as the selected hotels, and
                              expressed no concern regarding the use of resorts and other high cost
                              temporary assessment center locations.

                              The selection of the Wyndham Peaks Resort in Telluride, Colorado, illustrates
                              how the process worked. Newspaper articles criticizing TSA’s recruitment
                              program cited NCS Pearson’s use of the Wyndham Peaks Resort for
                              recruitment efforts as an example of wasteful government spending at the
                              taxpayer’s expense. The Wyndham served as the assessment center where 51
                              screeners were hired for five local airports:

                                   •    Four Corners Regional Airport (Category IV)12
                                   •    Telluride Regional Airport (Category IV)
                                   •    Durango-La Plata County Airport (Category III)

12
     Category II, III, and IV airports represent the smaller airports, with less than 2.5 million annual planned flights.

                               TSA’s Management Controls Over the Screener Recruitment Program
                                                       Page 11
________________________________________________
                                  •   Cortez Municipal Airport (Category IV)
                                  •   Alamosa-San Luis Valley Airport (Category IV)

                             According to TSA files, NCS Pearson selected the Wyndham site because it
                             met the space, availability, and connectivity requirements. Helms Briscoe
                             reviewed 13 hotels in four cities using TSA’s criteria before recommending
                             the Wyndham as the assessment center site. These cities included Telluride,
                             Colorado; Durango, Colorado; Farmington, New Mexico; and Cortez,
                             Colorado. Most hotels could not meet the extended time period required by
                             the airport federalization schedule. Additionally, many hotels did not have or
                             could not install T-1 lines within the timeframes required.

                             DCAA identified approximately $1.7 million in invoiced costs for the
                             Telluride, Colorado recruitment trip. This equates to $10,984 per person
                             assessed and $39,727 per person hired at the Wyndham site.


                             Establishment of Approximately 150 Temporary
                             Assessment Centers
                             By the end of the federalization process, NCS Pearson had established
                             approximately 150 temporary assessment sites used to hire more than 56,000
                             screeners. As of July 2004, costs billed by NCS Pearson for site-specific
                             temporary assessment centers totaled $435 million,13 with individual
                             assessment center costs ranging from $204,000 to $30 million. For detailed
                             listings of the top twenty assessment centers ranked by highest total cost,
                             highest cost per person hired, and highest cost per person assessed, refer to
                             Appendices D through F.

                             A strong correlation exists between the number of applicants assessed and
                             assessment center costs. Applicant rejection rates were higher than
                             anticipated and greatly increased the number of applicants assessed and the
                             length of time the centers remained opened. The original contract pricing
                             assessment-to-hire ratio estimate of 6:5 ended up closer to approximately 29:5
                             in practice. By the contract’s end, NCS Pearson assessed approximately
                             328,000 candidates to meet TSA’s staffing requirements14—more than 9 times
                             its original estimate, thus greatly increasing overall costs.


Improved Program and Contract Management
                             TSA has made changes to its recruitment program since it completed the
                             initial hiring phase. Current screener hiring occurs due to attrition, is
                             significantly lower in volume, and is not mainly controlled by congressional
                             deadlines. However, the follow-on recruitment contractor, CPS, still faces

13
     Excludes assessment center costs for pilot program.
14
     Staffing requirements consisted of qualifying 129,000 screeners for hiring and establishment of a ready pool.

                              TSA’s Management Controls Over the Screener Recruitment Program
                                                      Page 12
________________________________________________
          challenges in the recruitment process, such as frequent changes to staffing
          requirements and a lack of predictable airport attrition rates. According to
          CPS, the frequency of these changes makes it difficult to plan and execute the
          appropriate recruiting and outreach activities and to develop a hiring plan that
          allows time to assess an adequate number of candidates at each airport.

          TSA’s acquisition office also continues to grow. As of January 2005, TSA’s
          acquisition office had grown to 73 contracting personnel. In addition, TSA
          has formed an integrated project management team led by an experienced,
          certified project manager to provide oversight of the follow-on recruitment
          contractor. This team includes TSA personnel from program operations,
          budget, and acquisition offices. This team provides detailed direction to the
          contractor and actively reviews daily, weekly, and monthly reports concerning
          contract performance.

          In addition, TSA has developed and implemented several program
          management and acquisition policies since the airport federalization process
          in December 2002 for strengthening project management and contract
          planning and oversight throughout the acquisition lifecycle. In conjunction
          with DHS requirements, TSA has begun implementing certification
          requirements for program managers and contracting professionals. All
          program managers and contracting professionals must be certified at a level
          commensurate with the responsibilities of their position. The certification
          processes consider the level of education, training, and work experience of
          program managers and contracting professionals to determine their eligibility
          for certification and the appropriate certification level.

          TSA has also established an Acquisition and Program Management Support
          Division (PM Support Division) that provides program management support
          and develops acquisition policy relating to the acquisition life cycle process.
          For example, the PM Support Division has developed and implemented policy
          guidance requiring acquisition plans for contracting actions exceeding
          $5 million. Further, a management directive requires program offices to
          develop mission needs statements that detail TSA’s capability shortfalls to
          meet mission requirements.

          The DHS Investment Review Board (IRB) provides acquisition oversight of
          major acquisition investments and conducts portfolio management. The DHS
          Investment Review Process directive requires that the IRB review and
          approve all DHS acquisitions exceeding $50 million (level 1 acquisition). All
          level 1 acquisition projects must include critical planning documents, such as
          a mission needs statement, a program plan, a risk management plan, an
          acquisition plan, an operational requirements plan, an alternatives analysis,
          and an acquisition baseline. Program managers must review and revise the
          documents at each key decision point, as necessary, and submit the
          information to the IRB. The IRB will use the documentation to monitor


           TSA’s Management Controls Over the Screener Recruitment Program
                                   Page 13
________________________________________________
             initiatives, direct corrective actions, and determine when an investment is
             ready to proceed to the next phase.

             GAO and OMB best practices identify a comprehensive planning phase as a
             core part of the acquisition process and critical to the successful completion of
             acquisition projects. These practices include identifying program needs that
             align with specific agency goals, determining necessary resources it lacks to
             achieve results, and evaluating alternative approaches to achieve the desired
             results. The DHS program manager certification requirements and the
             investment review process will help TSA improve its project management and
             acquisition planning.

Conclusion
             TSA faced a formidable challenge to hire a federalized airport screener
             workforce within a one year Congressional mandate. With no prior
             experience with a large-scale recruitment program, limited personnel, and no
             established requirements or procedures concerning project management, TSA
             successfully recruited more than 56,000 airport screeners within the mandated
             period.

             TSA faced critical decisions daily and did not always fully analyze the impact
             of its decisions on the federalization process. Limited funding and a lack of
             sound funds control became problems. Furthermore, TSA staffing levels were
             not adequate to handle the volume of mission critical contracts underway and
             contributed to the lack of management oversight during the federalization
             process.

             TSA has taken significant steps to improve acquisition planning and program
             management. Additionally, we recently assessed DHS’s overall procurement
             and program management operations and made several recommendations to
             the Secretary, including the need to address the staffing level of procurement
             offices in the department. These additional policies and procedures will help
             TSA to strengthen project management and use procurement activities more
             effectively. However, TSA needs to further improve its acquisition policies
             and procedures in certain areas, particularly: (1) increasing emphasis on
             defining requirements, (2) performing cost-benefit and alternative analyses,
             and (3) estimating life cycle costs. We will continue to monitor TSA’s
             procurement and project management operations.

             We focused our audit on TSA’s management of the airport federalization
             process. We did not consider actions by NCS Pearson that may have
             contributed to increased costs. We did not express an opinion on the
             contract’s individual cost elements or determine the cost of other screener
             recruitment approaches. Contract scope changes identified during our audit



             TSA’s Management Controls Over the Screener Recruitment Program
                                     Page 14
________________________________________________
             would have increased contract costs regardless of the recruitment
             methodology.


Recommendations
             We recommend that:

          1. TSA's Deputy Assistant Administrator for Acquisition, Chief Procurement
             Executive, Office of Acquisitions, further improve TSA acquisition policies
             and procedures to control contract costs and provide effective project
             management as indicated in the conclusion section of the report.

          2. TSA’s Assistant Administrator for Finance and Administration and Chief
             Financial Officer, Office of Finance and Administration, strengthen and
             formalize TSA’s policies and procedures governing funds certification, status
             of funds reporting, and recordation practices, consistent with OMB and DHS
             guidelines.


             Management Comments and OIG Analysis

             TSA concurred with our recommendation to continue to improve TSA
             acquisitions policies and procedures to control contract costs and to provide
             effective project management. In its response to our report, TSA highlighted
             additional actions it has taken to improve its overall program and contract
             management. These include development of an integrated program
             management policy, assignment of expert program management support
             personnel to each program, development of acquisition issue workshops for
             program offices, and implementation of an acquisition program status system.
             TSA will continue to work with DHS to implement a contract oversight
             program that provides a system of internal controls. A copy of TSA’s
             response is included as Appendix B.

             We consider the recommendations resolved and will close the
             recommendations when TSA completes its planned actions and addresses the
             areas identified in this report, such as improving its policies and procedures
             concerning defining requirements, performing cost-benefit and alternative
             analyses, and estimating life cycle costs.




              TSA’s Management Controls Over the Screener Recruitment Program
                                      Page 15
Appendix A
Purpose, Scope, and Methodology




The audit objective was to determine the efficacy of TSA’s management and
oversight of its screener recruitment program. Specifically, we focused on the
following congressional concerns regarding the cost recruitment activities
performed at various nationwide resort hotels:

    •   Cost of TSA’s recruitment activities performed at various resort hotels,
        including the Wyndham Peaks Resort and Golden Door Spa located in
        Telluride, Colorado;
    •   Oversight of TSA’s past and current recruitment program;
    •   Criteria governing the assessment center selection process; and
    •   Officials responsible for selection of assessment center locations used
        for recruitment purposes

We focused our audit on TSA’s management of the airport federalization
process, not on NCS Pearson’s incurred costs. We did not express an opinion
on the contract’s individual cost elements or determine the cost of other
screener recruitment approaches. Contract scope changes identified during
our audit would have increased contract costs regardless of the recruitment
methodology.

In an attempt to reconstruct TSA’s decision-making process, we reviewed
contract files, contractor files, staffing numbers, federalization schedules,
emails, and miscellaneous file documentation. Data limitations from TSA and
NCS Pearson impacted our ability to validate the accuracy of much of this
information. Basic information, such as the number of screeners actually
hired at specific airports as of December 31, 2002, existed, but was not readily
retrievable. TSA compiled the staffing information at our request and we did
not test its accuracy. Many of the management decisions were orally
communicated or sent via email. Little file documentation exists to show
accountability for decisions, such as when and who made the actual decision
to establish temporary assessment center sites. As a result, we could not
identify any one official or officials responsible for making the decision to
establish temporary assessment center sites.

To gain an understanding about TSA’s oversight of the recruitment program,
the criteria governing the assessment center process, and the personnel
directing contract decisions, we interviewed people involved in the initial
federalization process. This included the former Deputy Secretary for the
Department of Transportation, several members of the initial recruitment Go-
Team, and several members of the dedicated workforce transition team. We
also interviewed numerous personnel from the office of acquisition, policy,
legal, budget, and program management. In addition, we interviewed NCS


TSA’s Management Controls Over the Screener Recruitment Program
                        Page 16
                             Appendix A
                             Purpose, Scope, and Methodology




                             Pearson and the follow-on contractors, Accenture,15 and CPS Services, Inc.16
                             We also reviewed TSA’s acquisition and project management policies and
                             procedures, relevant sections of the ATSA, the Federal Acquisition
                             Regulations, and the Federal Aviation Administration’s Acquisition
                             Management System.

                             We relied exclusively on DCAA’s May 2004 compilation of invoiced costs to
                             determine site specific and unspecified assessment center costs. DCAA began
                             an incurred cost audit of the NCS Pearson contract in August 2002. While
                             DCAA could validate that NCS Pearson spent the amount of invoiced costs, it
                             could not determine the allocability, allowability, and reasonableness of
                             contract costs due to a lack of certain information from NCS Pearson and
                             TSA. As a result, DCAA issued a disclaimed audit opinion in May 2004.
                             Using DCAA’s report, as well as additional documentation provided by NCS
                             Pearson after the DCAA audit, TSA developed a negotiation position and
                             settled the contract at $741 million.

                             We used information from DCAA, TSA, and NCS Pearson to compile and
                             compute the information contained in appendices D through F. Using a list of
                             assessment centers containing basic logistical information from NCS Pearson,
                             we identified the DCAA site-specific cost associated with each assessment
                             center. We then used information provided by NCS Pearson and TSA to
                             identify the number of candidates assessed and hired, respectively. Once we
                             identified the site-specific cost, number of candidates assessed, and number of
                             candidates hired per assessment center, we calculated a site-specific cost per
                             person assessed and hired. We allocated a portion of those costs invoiced by
                             NCS Pearson that were not included in site-specific costs (unspecified costs)
                             to the site-specific cost per person assessed and hired to determine a total cost
                             per person assessed and hired. We ranked total costs per person assessed and
                             hired to show the top 20 for each specific category. Data displayed in the
                             appendices represents the best available information at the time of our review.

                             We conducted our audit between April 2003 and July 2005. The audit was
                             conducted according to generally accepted government auditing standards and
                             pursuant to our authority under the IG Act of 1978 as amended.

15
     Accenture manages TSA’s human resource management system.
16
     CPS Services, Inc. performs the recruitment and assessment portion of TSA’s continued screener hiring process.




                             TSA’s Management Controls Over the Screener Recruitment Program
                                                     Page 17
Appendix B
Management Comments




TSA’s Management Controls Over the Screener Recruitment Program
                        Page 18
Appendix B
Management Comments




TSA’s Management Controls Over the Screener Recruitment Program
                        Page 19
Appendix B
Management Comments




TSA’s Management Controls Over the Screener Recruitment Program
                        Page 20
Appendix B
Management Comments




                              .




TSA’s Management Controls Over the Screener Recruitment Program
                        Page 21
Appendix C
Congressional Request for OIG Review




TSA’s Management Controls Over the Screener Recruitment Program
                        Page 22
Appendix C
Congressional Request for OIG Review




TSA’s Management Controls Over the Screener Recruitment Program
                        Page 23
                              Appendix D
                              Top 20 Assessment Centers Ranked by Highest Total Costs




                                          Top 20 Assessment Centers Ranked by Highest Total Costs17
                                                                                    Total Cost Per                       Total Cost Per
                                                                                       Person                            Person Hired
                                                                                   Assessed Prior Unspecified               Prior to                  Total
                                                                                   to Allocation of Cost Per  Total Cost Allocation of Unspecified Cost Per
                                                Candidates Candidates Site Specific Unspecified      Person   Per Person Unspecified      Cost Per   Person
Location                        Airport Code     Assessed    Hired     Total Cost       Costs       Assessed Assessed        Costs      Person Hired Hired

                          JFK, EWR, HVN, HPN,
NYC, NY                   ISP, LGA, SWF            23,688       4,093     $29,522,804      $1,246         $1,243      $2,489   $7,213     $7,256   $14,469

Dallas-Ft. Worth, TX      DFW, DAL, SPS, ACT       12,211       1,808     $16,168,564      $1,324         $1,243      $2,567   $8,943     $7,256   $16,199

Los Angeles, CA           LAX, ONT, BUR            17,846       3,272     $14,410,791       $808          $1,243      $2,051   $4,404     $7,256   $11,660

Rosemont/Chicago, IL      ORD, MCW                 15,025       2,690     $11,502,998       $766          $1,243      $2,009   $4,276     $7,256   $11,532

Boston, MA                BOS, MHT, ORH, BED       7,676        1,293     $11,048,289      $1,439         $1,243      $2,682   $8,545     $7,256   $15,801
Fort Lauderdale/ Dania,
FL                        MIA, FLL, PBI            16,231       2,865     $9,976,698        $615          $1,243      $1,858   $3,482     $7,256   $10,738

Atlanta, GA               ATL, AHN                 11,485       1,357     $9,972,733        $868          $1,243      $2,111   $7,349     $7,256   $14,605
Bloomington/
Minneapolis, MN           MSP, DLH                 4,668         968      $9,400,594       $2,014         $1,243      $3,257   $9,711     $7,256   $16,967

Reston, VA                IAD                      3,100         686      $8,761,376       $2,826         $1,243      $4,069   $12,772    $7,256   $20,028

                          CLT, CAE, GSP, GSO,
Charlotte, NC             HKY                      6,144         882      $8,068,127       $1.313         $1,243      $2,556   $9,148     $7,256   $16,404

                          PHL, RDG, ACY, MDT,
Philadelphia, PA          ABE, TTN, LNS            6,018        1,181     $7,277,757       $1,209         $1,243      $2,452   $6,162     $7,256   $13,418

Orlando, FL               MCO, MLB, SFB            7,642        1,411     $7,119,427        $932          $1,243      $2,175   $5,046     $7,256   $12,302

Honolulu, HI              HNL                      3,959         667      $6,519,798       $1,647         $1,243      $2,890   $9,775     $7,256   $17,031




17
     Costs were calculated using total invoiced costs of $867 million instead of the $741 million agreed to at settlement.

                                                                        TSA’s Management Controls Over the Screener Recruitment Program
                                                                              Page 24
                     Appendix D
                     Top 20 Assessment Centers Ranked by Highest Total Costs




                               Top 20 Assessment Centers Ranked by Highest Total Costs17
                                                                            Total Cost Per                       Total Cost Per
                                                                               Person                            Person Hired
                                                                           Assessed Prior Unspecified               Prior to                  Total
                                                                           to Allocation of Cost Per  Total Cost Allocation of Unspecified Cost Per
                                        Candidates Candidates Site Specific Unspecified      Person   Per Person Unspecified      Cost Per   Person
Location              Airport Code       Assessed    Hired     Total Cost       Costs       Assessed Assessed        Costs      Person Hired Hired

                  HOU, BPT, EFD, IAH,
Houston, TX       LCH, CLL                7,107       1,330     $6,395,891      $900         $1,243     $2,143       $4.809      $7,256    $12,065

Detroit, MI       DTW, LAN, FNT, TOL      5,024       1,220     $5,800,886     $1,155        $1,243     $2,398       $4,755      $7,256    $12,011

                  DEN, COS, PUB, FNL,
Denver, CO        CYS, AKO                4,802       1,217     $5,585,444     $1,163        $1,243     $2,406       $4,590      $7,256    $11,846

Washington, DC    DCA, HGR                3,035       534       $5,546,350     $1,827        $1,243     $3,070      $10,386      $7,256    $17,642

                  BDL, GON, ALB, CEF,
Springfield, MA   PVD                     4,393       767       $5,421,251     $1,234        $1,243     $2,477       $7,068      $7,256    $14,324

                  PIT, DUJ, CBE, JST,
                  AOO, LBE, UNV, FKL,
Pittsburgh, PA    YNG                     4,195       659       $5,231,145     $1,247        $1,243     $2,490       $7,938      $7,256    $15,194

                  UCA, BUF, ITH, SYR,
Rochester, NY     ELM, IAG, ROC           5,507       465       $5,114,646      $929         $1,243     $2,172      $10,999      $7,256    $18,255




                                                              TSA’s Management Controls Over the Screener Recruitment Program
                                                                    Page 25
                               Appendix E
                               Top 20 Assessment Centers Ranked by Highest Cost Per Person Hired




                                  Top 20 Assessment Centers Ranked by Highest Cost Per Person Hired18
                                                                                                                                     Total Cost
                                                                                        Total Cost                                  Per Person
                                                                                        Per Person                                  Hired Prior
                                                                                        Assessed                                         to
                                                                                          Prior to     Unspecified                   Allocation Unspecified
                                                                                       Allocation of    Cost Per     Total Cost Per      of      Cost Per   Total Cost
                                           Candidates    Candidates    Site Specific   Unspecified       Person         Person      Unspecified   Person    Per Person
       Location         Airport Code        Assessed       Hired        Total Cost         Costs        Assessed       Assessed        Costs       Hired      Hired

Topeka, KS          FOE, MCI                     73           4          $544,705       $7,462           $1,243         $8,705     $136,176      $7,256    $143,432
Barrow, AK          BRW                          35           2          $242,224       $6,921           $1,243         $8,164     $121,112      $7,256    $128,368
Dutch Harbor, AK DUT                             49           9          $505,878      $10,324           $1,243       $11,567      $56,209       $7,256     $63,465
Watertown/
Massena, NY      MSS, ART, OGS                  404          25         $1,400,573      $3,467          $1,243         $4,710      $56,023       $7,256     $63,279

                    HYA, ACK, MVY,
Hyannis, MA         PVC                         370          33         $1,815,287      $4,906           $1,243         $6,149     $55,009       $7,256     $62,265
Duck Key, FL        EYW                          65          27         $1,462,730     $22,504           $1,243       $23,747      $54,175       $7,256     $61,431
Lanai City, HI      LNY                          56          14          $728,141      $13,003          $1,243        $14,246      $52,010       $7,256     $59,266
Houghton Lake,
MI                  CMX                          78          10          $481,384       $6,172           $1,243         $7,415     $48,138       $7,256     $55,394
Nome, AK            OME, OTZ                     37           8          $350,715       $9,479           $1,243       $10,722      $43,839       $7,256     $51,095
Eureka, CA          ACV                         100          16          $661,399       $6,614          $1,243         $7,857      $41,337       $7,256     $48,593

                    SHR, WRL, GCC,
Sheridan, WY        COD                         289          32         $1,276,002      $4,415           $1,243         $5,658     $39,875       $7,256     $47,131




18
     Costs were calculated using total invoiced costs of $867 million instead of the $741 million agreed to at settlement.
                                                                       TSA’s Management Controls Over the Screener Recruitment Program
                                                                             Page 26
                             Appendix E
                             Top 20 Assessment Centers Ranked by Highest Cost Per Person Hired




                        Top 20 Assessment Centers Ranked by Highest Cost Per Person Hired (cont’d)
                                                                                                                                Total Cost
                                                                                   Total Cost                                  Per Person
                                                                                   Per Person                                  Hired Prior
                                                                                   Assessed                                         to
                                                                                     Prior to     Unspecified                   Allocation Unspecified Total Cost
                                                                                  Allocation of    Cost Per     Total Cost Per      of      Cost Per   Per Person
                                        Candidates   Candidates   Site Specific   Unspecified       Person         Person      Unspecified   Person      Hired
    Location         Airport Code        Assessed      Hired       Total Cost         Costs        Assessed       Assessed        Costs       Hired

Kodiak, AK        ADQ                         85          9         $354,706       $4,173          $1,243         $5,416      $39,412       $7,256     $46,668

Casper, WY        RIW, CPR                   177         21         $817,066       $4,616           $1,243         $5,859     $38,908       $7,256     $46,164

Easton, MD        SBY                        124         18         $663,223       $5,349          $1,243         $6,592      $38,846       $7,256     $44,102

Scottsbluff, NE   AIA, BFF, LBF, CDR         160         26         $947,010       $5,919          $1,243         $7,162      $36,423       $7,256     $43,679

Rapid City, SD    RAP, PIR                   355         37        $1,346,502      $3.793          $1,243         $5,036      $36,392       $7,256     $43,648

Bradford, PA      BFD, JHW                   357         19         $664,367       $1,861          $1,243         $3,104      $34,967       $7,256     $42,223
                  DRO, ALS, TEX,
Telluride, CO     CEZ, FMN                   170         51        $1,656,021      $9,741           $1,243       $10,984      $32,471       $7,256     $39,727

Rochester, MN     RST, LSE                   374         45        $1,402,261      $3,749           $1,243         $4,992     $31,161       $7,256     $38,417

Juneau, AK        JNU                        241         66        $2,043,296      $8,478          $1,243         $9,721      $30,959       $7,256     $38,215




                                                                  TSA’s Management Controls Over the Screener Recruitment Program
                                                                        Page 27
                                Appendix F
                                Top 20 Assessment Centers Ranked by Highest Cost Per Person Assessed




                            Top 20 Assessment Centers Ranked by Highest Cost Per Person Assessed 19
                                                                                                Total Cost                           Total Cost
                                                                                               Per Person                           Per Person
                                                                                                Assessed                            Hired Prior
                                                                                                                       Total Cost                           Total Cost
                                                  Candidates      Candidates     Site Specific   Prior to                                to
          Location               Airport Code                                                                          Per Person                           Per Person
                                                   Assessed         Hired         Total Cost    Allocation Unspecified               Allocation Unspecified
                                                                                                                       Assessed                               Hired
                                                                                                    of      Cost Per                     of      Cost Per
                                                                                               Unspecified Person                   Unspecified   Person
                                                                                                  Costs     Assessed                   Costs       Hired
Duck Key, FL              EYW                          65            27          $1,462,730     $22,504      $1,243    $23,747       $54,175     $7,256      $61,431

Fairbanks, AK             FAI                         124            80          $2,381,953     $19,209      $1,243    $20,452       $29,774     $7,256      $37,030

Lanai City, HI            LNY                          56            14            $728,141     $13,003      $1,243    $14,246       $52,010     $7,256      $59,266
Dutch Harbor, AK          DUT                          49             9            $505,878     $10,324      $1,243    $11,567       $56,209     $7,256      $63,465
Steamboat Springs, CO     HDN, RKS, LAR, VEL           82            37            $814,982      $9,939      $1,243    $11,182       $22,027     $7,256      $29,283

                          DRO, ALS, TEX, CEZ,
Telluride, CO             FMN                         170            51          $1,656,021      $9,741      $1,243    $10,984       $32,471     $7,256      $39,727
Nome, AK                  OME, OTZ                     37             8            $350,715      $9,479      $1,243    $10,722       $43,839     $7,256      $51,095
Elko, NV                  EKO                          78            23            $667,154      $8,553      $1,243     $9,796       $29.007     $7,256      $36,263
Juneau, AK                JNU                         241            66          $2,043,296      $8,478      $1,243     $9,721       $30,959     $7,256      $38,215
Topeka, KS                FOE, MCI                     73             4            $544,705      $7,462      $1,243      $8,705     $136,176     $7,256    $143,432
Barrow, AK                BRW                          35             2            $242,224      $6,921      $1,243      $8,164     $121,112     $7,256    $128,368

Maunaloa, Isl of Molokai,
HI                        MKK                          65            20            $444,043      $6,831      $1,243      $8,074      $22,202     $7,256      $29,458
Eureka, CA                ACV                         100            16            $661,399      $6,614      $1,243     $7,857       $41,337     $7,256      $48,593
Page, AZ                  CDC, PGA, SGU                92            27            $597,492      $6,494      $1,243      $7,737      $22,129     $7,256      $29,385
Houghton Lake, MI         CMX                          78            10            $481,384      $6,172      $1,243      $7,415      $48,138     $7,256      $55,394
Scottsbluff, NE           AIA, BFF, LBF, CDR          160            26            $947,010      $5,919      $1,243     $7,162       $36,423     $7,256      $43,679

19
     Costs were calculated using total invoiced costs of $867 million instead of the $741 million agreed to at settlement




                                                                          TSA’s Management Controls Over the Screener Recruitment Program
                                                                                Page 28
                               Appendix F
                               Top 20 Assessment Centers Ranked by Highest Cost Per Person Assessed




                              Top 20 Assessment Centers Ranked by Highest Cost Per Person Assessed 19
                                                                                             Total Cost                           Total Cost
                                                                                            Per Person                           Per Person
                                                                                             Assessed                            Hired Prior
                                                                                                                    Total Cost                           Total Cost
                                                 Candidates    Candidates     Site Specific   Prior to                                to
        Location                  Airport Code                                                                      Per Person                           Per Person
                                                  Assessed       Hired         Total Cost    Allocation Unspecified               Allocation Unspecified
                                                                                                                    Assessed                               Hired
                                                                                                 of      Cost Per                     of      Cost Per
                                                                                            Unspecified Person                   Unspecified   Person
                                                                                               Costs     Assessed                   Costs       Hired
St. Croix-St. Thomas, VI STT, STX                    536         169          $3,137,766      $5,854      $1,243      $7,097     $18,567      $7,256      $25,823
Ketchikan, AK               KTN                       66          23            $375,109      $5,683      $1,243      $6,926     $16,309      $7,256      $23,565
Williston/ Burlington, VT   BTV, LEB, RUT            509         112          $2,774,923      $5,452      $1,243     $6,695      $24,776      $7,256      $32,032
Easton, MD                  SBY                      124          18            $663,223      $5,349      $1,243      $6,592     $36,846      $7,256      $44,102




                                                                       TSA’s Management Controls Over the Screener Recruitment Program
                                                                             Page 29
                  Appendix G
                  NCS Pearson Contract Modifications and Funding




Modification Number     Modification Date            Contract Ceiling               Incremental
                                                                                      Funding
Contract Award               02-25-02                  $103,449,011                 $44,000,000
Modification 1               05-20-02                  $103,449,011                      N/A
Modification 2               06-14-02                  $103,449,011                 $23,000,000
Modification 3               06-27-02                  $103,449,011                      N/A
Modification 4               09-06-02                  $153,519,011                 $62,000,000
Modification 5               09-30-02                  $344,000,000                 $63,000,000
Modification 6               10-04-02                  $344,000,000                 $152,000,000
Modification 7               11-04-02                  $660,000,000                 $276,000,000
Modification 8               12-09-02                  $660,000,000                 $27,000,000
Modification 9               12-19-02                  $669,371,263                  $9,371,263
Modification 10              12-19-02                  $669,371,263                  $13,000,000
Modification 11              03-10-03                  $678,271,263                  $8,900,000
Modification 12              04-01-03                  $741,471,263                  $63,200,000




                  TSA’s Management Controls Over the Screener Recruitment Program
                                          Page 30
Appendix H
Major Contributors To This Report




Judy Leonhardt, Program Director, Management Services
William Schroeder, Audit Supervisor
Ruth Blevins, Senior Analyst
Pat Gibson, Senior Analyst
Douglas Thomas, Analyst




TSA’s Management Controls Over the Screener Recruitment Program
                        Page 31
Appendix I
Report Distribution



Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretariat
Assistant Secretary, TSA
Under Secretary, Management
Chief Procurement Officer
Assistant Secretary, Public Affairs
Assistant Secretary, Policy
Assistant Secretary, Legislative Affairs
DHS OIG Liaison
TSA Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




TSA’s Management Controls Over the Screener Recruitment Program
                        Page 32
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
